<html>
<title> - HELP FIND THE MISSING ACT OR BILLY'S LAW</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                HELP FIND THE MISSING ACT OR BILLY'S LAW 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 3695

                               __________

                            JANUARY 21, 2010

                               __________

                           Serial No. 111-99

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-535 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               STEVE KING, Iowa
HENRY C. ``HANK'' JOHNSON, Jr.,      TRENT FRANKS, Arizona
  Georgia                            LOUIE GOHMERT, Texas
PEDRO PIERLUISI, Puerto Rico         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               TED POE, Texas
JUDY CHU, California                 JASON CHAFFETZ, Utah
LUIS V. GUTIERREZ, Illinois          TOM ROONEY, Florida
TAMMY BALDWIN, Wisconsin             GREGG HARPER, Mississippi
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York
[Vacant]

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
JERROLD NADLER, New York             TED POE, Texas
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               TOM ROONEY, Florida
ANTHONY D. WEINER, New York
DEBBIE WASSERMAN SCHULTZ, Florida
MIKE QUIGLEY, Illinois

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel





















                            C O N T E N T S

                              ----------                              

                            JANUARY 21, 2010

                                                                   Page

                                THE BILL

H.R. 3695, the ``Help Find the Missing Act'' or Billy's Law''....     3

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    26
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................    27

                               WITNESSES

The Honorable Christopher S. Murphy, a Representative in Congress 
  from the State of Connecticut
  Oral Testimony.................................................    28
  Prepared Statement.............................................    29
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas
  Oral Testimony.................................................    30
  Prepared Statement.............................................    32
Ms. Janice Smolinski, Cheshire, CT
  Oral Testimony.................................................    33
  Prepared Statement.............................................    35
Ms. Kristina Rose, Acting Director, National Institute of 
  Justice, Office of Justice Programs, U.S. Department of 
  Justice, Washington, DC
  Oral Testimony.................................................    36
  Prepared Statement.............................................    39
Stephen L. Morris, Deputy Assistant Director, Criminal Justice 
  Information Services Division, Federal Bureau of Investigation, 
  Washington, DC
  Oral Testimony.................................................    43
  Prepared Statement.............................................    46

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Maxine Waters, a 
  Representative in Congress from the State of California, and 
  Member, Subcommittee on Crime, Terrorism, and Homeland Security    56
Letter to the Honorable Bobby Scott, Chairman, Subcommittee on 
  Crime, Terrorism, and Homeland Security, from Ronald Weich, 
  Assistant Attorney General, Office of Legislative Affairs, U.S. 
  Department of Justice, Washington, DC..........................    60


                       HELP FIND THE MISSING ACT 
                             OR BILLY'S LAW

                              ----------                              


                       THURSDAY, JANUARY 21, 2010

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 11:04 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Conyers, Waters, Wasserman 
Schultz, Quigley, Gohmert, and Poe.
    Staff present: (Majority) Bobby Vassar, Subcommittee Chief 
Counsel; Liliana Coronado (Fellow) Federal Public Defender 
Office Detailee; Joe Graupensperger, Counsel; Veronica Eligan, 
Professional Staff Member; (Minority) Caroline Lynch, Counsel; 
and Justin Long, Counsel.
    Mr. Scott. The Subcommittee will now come to order. And I 
am pleased to welcome you today to the hearing before the 
Subcommittee on Crime, Terrorism, and Homeland Security about 
H.R. 3695, thr ``Help Find the Missing Act,'' also known as 
``Billy's Law.''
    Today we will discuss the problem of missing persons in 
this country and mechanisms that have been established and 
which can be strengthened so that not only law enforcement but 
also private citizens can do more to find those who go missing.
    Every year, tens of thousands of Americans go missing and 
are never found by their loved ones. This is a staggering 
statistic. But each of these statistics is more than a mere 
number. They are real people with real problems, and each 
unsolved missing case is a tragedy.
    With us today to tell us about one such case is Janice 
Smolinski, whose son Billy went missing in 2004 and who has not 
been found. Her ordeal represents one of the many thousands and 
gives us an idea of what a family goes through to find a 
missing loved one.
    Fortunately for us, she has used her experience to help 
others by trying to make available more information about 
missing persons to both law enforcement and to the families and 
friends of those who are missing.
    It is important that law enforcement have all of the 
appropriate information about the missing person so they can do 
their jobs to find them.
    It is equally important that families be able to access 
information about missing persons and unidentified remains of 
persons so that they can search the information that may help 
solve their own cases.
    The FBI's NCIC has for many years contained databases for 
missing persons and for identified remains of persons. These 
databases contain information submitted to--submitted by 
Federal, State and--and local law enforcement agencies.
    The missing persons file is comprised of entries for 
missing individuals listed various--listing various personal 
characteristics such as name, gender, race and dental records.
    The unidentified persons file mainly consists of 
descriptive information about deceased and unidentified bodies 
in various States ranging from the recently deceased to 
skeletal and partial remains.
    For years these databases were crucial to law enforcement 
efforts to find missing persons and link some missing persons 
with remains that were initially unidentified. But they were 
not open to the public's use and assisting private efforts at 
finding missing persons.
    Because of this restriction, the Justice Department 
National Institute of Justice established similar databases but 
open to the public in 2007. This new system is called NamUs, N-
A-M, capital US, and similarly consists of two databases, one 
for missing persons and one for unidentified remains.
    Information in NamUs is available and searchable online by 
anyone, most notably the families of missing persons. Under 
some circumstances, the public may even contribute information 
to the program to make it even more comprehensive.
    Today we will discuss a bill that has been introduced to 
reinforce these databases, and I look forward to hearing from 
our two panels of witnesses on how H.R. 3695 will strengthen 
these databases and encourage submission of more information to 
them so that even more--so that they may be even more useful to 
both law enforcement and members of the public.
    Today we have two panels of witnesses who will discuss the 
missing persons. We will hear from legislators and from others 
involved.
    And at this point I will yield to the gentleman from Texas, 
the Ranking Member of the Subcommittee, Judge Gohmert.
    [The bill, H.R. 3695, follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gohmert. Thank you, Chairman.
    Reuniting a missing person with their family or identifying 
the remains of a lost loved one are very important law 
enforcement priorities.
    I look forward to learning more about what can be done to 
utilize the technology and funds to track missing persons and 
identify unknown and unidentified remains.
    Every year tens of thousands of Americans go missing, never 
to be seen by their loved ones again. In 2009 there were more 
than 100,000 missing persons records active in the FBI's 
National Crime Information Center database.
    Simultaneously, medical examiners' and coroners' offices 
across the country are holding tens of thousands of 
unidentified remains. Estimates indicate that 40,000 sets of 
unidentified remains are being held.
    But as of January 2009, the FBI's NCIC database contains 
only 7,000 records of unidentified remains. This means that 
medical examiners' and coroners' offices are not recording in 
the NCIC database many of the unidentified remains they hold.
    And consequently, it is likely that many missing person 
cases remain open for failure to connect missing person 
profiles with unidentified remains being held.
    Certainly, this disconnect between missing person cases and 
unidentified remains should be resolved. Additionally, modern 
technology and Internet should be utilized in State-Federal 
efforts to track missing persons and identify previously 
unidentified remains.
    The ``Help Find the Missing Act,'' or ``Billy's Law,'' 
seeks to address these concerns by increasing funding for a 
national online repository and reporting system called NamUs, 
the National Missing and Unidentified Persons System.
    The goal is to have coroners, medical examiners, law 
enforcement agencies and even the public all reporting 
information and getting information from one centralized Web 
site, NamUs.
    Presently, there are many Federal, State, local and 
nonprofit databases designed to help, but these databases are 
not sufficiently accessible, and they do not do a good job of 
sharing information amongst each other.
    There is a great need for coordination among these 
databases and agencies. For this reason, NamUs was established 
by the Department of Justice in 2007 pursuant to President 
Bush's DNA initiative to provide two databases, one for missing 
persons and one for unidentified remains.
    NamUs enables the public to access, search and contribute 
toward these databases. It also enables medical examiners and 
coroners to link their information on unidentified remains with 
Federal and State law enforcement information on missing 
persons, so long as medical examiners, coroners and law 
enforcement have enough funding and technology to regularly 
utilize NamUs and share this information with the FBI's NCIC 
database.
    To encourage medical examiners, coroners and law 
enforcement agencies to regularly use NamUs, ``Billy's Law'' 
provides the attorney generals incentive grant programs for 
medical examiners and coroners.
    Permissible uses of the funds include database training 
according to best practice, the hiring of additional personnel, 
purchase of new technology. It authorizes $2.4 million for each 
of the fiscal years 2010 through 2014 in order to maintain the 
NamUs databases and coordinate data-sharing between the NCIC 
database and NamUs.
    I am interested to learn whether the witnesses have 
suggestions for efficient and effective reforms not proposed in 
``Billy's Law.'' It does seem clear that we need to improve the 
reporting, sharing and analyzing of information, but I want to 
be careful and ensure that funds are used wisely.
    Welcome the witnesses here today. Appreciate your being 
here. Appreciate the testimony. We received written testimony. 
I am going to have to leave the hearing early, but I have 
been--I reviewed last night the written testimony, and I am 
extremely interested as a former district judge, as my friend 
Congressman Poe, Ted Poe from Texas.
    And so we appreciate everybody's efforts to be here. We 
know you are not here for the money you get for being a 
witness, because there is none. You are here because of what is 
in your heart, and we appreciate that very much.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you, Mr. Gohmert.
    The gentleman from Michigan, the Chairman of the full 
Committee, Mr. Conyers?
    Mr. Conyers. Thank you, Mr. Chairman.
    We welcome Mr. and Mrs. Smolinski here, and we want you to 
just know how this function goes on in Judiciary Committee. 
See, this is a special Subcommittee. You have got a veteran 
trial lawyer as the Chairman, and you have got two judges just 
in case we lawyers stray off.
    And so between Poe and Gohmert, this is the perfect place 
for this subject matter to come up. And the last thing you 
ought to know is that procedurally we all describe the bill, 
explain it, so that there is nothing for the authors to do.
    By the time we finish, everybody has heard the bill 
described repeatedly. And that makes their testimony, 
hopefully, even briefer than it was going to have been.
    So I thank you, Mr. Chairman.
    Mr. Scott. I thank you, Mr. Chairman. I think it is a nice 
try, but I am not sure they are going to accommodate us.
    Our first panel will consist of two of our colleagues, 
Congressman Chris Murphy and Congressman Ted Poe, who have 
introduced H.R. 3695, the bill we are discussing today.
    Congressman Murphy represents the 5th District of 
Connecticut, the home of Billy Smolinski. He is in his second 
term and is a member of the Energy and Commerce Committee and 
Oversight and Government Reform Committee.
    Congressman Poe represents the 2nd District of Texas. He is 
in his third term and a distinguished Member of the--of this 
Subcommittee of the Judiciary Committee as well as serving as a 
Member of the Foreign Affairs Committee.
    We will receive your testimony at this time, beginning with 
Mr. Murphy.

      TESTIMONY OF THE HONORABLE CHRISTOPHER S. MURPHY, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. Murphy. Thank you very much, Chairman Scott.
    And that was a valiant attempt, Mr. Conyers. I will attempt 
to keep this as short as possible.
    First, I would like to thank the Subcommittee, Ranking 
Member Gohmert and the full Committee and the leadership of 
Chairman Conyers for their prompt attention to this matter. I 
know how seriously you take this, and that is evidenced by the 
fact that we are here today, not very long after the 
introduction of this legislation.
    The picture I have to paint for you today is admittedly 
grim. As has been mentioned, every year thousands of Americans 
go missing, often never to be seen by their loved ones again.
    In fact, as we have heard, there are over 100,000 unsolved 
missing persons cases open at any given time. And there are 
approximately 4,400 unidentified human remains found on an 
average year.
    Now, those numbers are too high, but just as intolerable 
are the roadblocks that family members are facing when trying 
to help law enforcement find a missing love one.
    This legislation is named after Billy Smolinski of 
Waterbury, Connecticut. He went missing on, excuse me, August 
24, 2004 at the age of 31. I will let Billy's mother, Jan, 
share her family's experience with you today.
    The Smolinskis' story is tragic, but their family's pursuit 
of justice and their desire to change the system for the better 
is nothing less than heroic.
    You will hear their story straight from Jan, but I can tell 
you this. No one should ever have to face the systematic 
failures, the frustrations and the heartbreak that the 
Smolinskis and thousands of other families have endured in 
their search to find their loved ones.
    H.R. 3695, which I am proud to introduce with, really, 
Congress' leading champion on the issue of missing persons, 
Congressman Ted Poe, tackles three major problems with our 
Nation's missing persons system.
    First, many law enforcement agencies, medical examiners and 
coroners--they don't have the resources to report missing 
adults and unidentified remains.
    In fact, according to the Bureau of Justice Statistics 
census that they took of these officials, 80 percent of those 
surveyed reported rarely or never using the existing 
unidentified remains database.
    Second, there really is no central database to report both 
missing persons and unidentified remains. Instead, there are a 
myriad of unconnected Federal, and State, and local and 
nonprofit databases.
    This means that a missing persons report may be entered 
into one database, while a person's remains may be listed in 
another, making it almost impossible for family members to try 
to connect those missing pieces.
    Third, many local law enforcement personnel just don't know 
about these databases or how to best handle these cases when 
they come in to law enforcement in the first place.
    ``Billy's Law'' addresses these three problems. First, the 
legislation provides for the first time statutory authorization 
for the National Missing and Unidentified Persons System, 
known, as Mr. Scott said, as NamUs, the Web-based database that 
was created in July 2007 by the Department of Justice--the only 
Federal missing persons and unidentified remains database that 
the public can access and contribute to, and yet it is 
currently not a congressionally authorized program.
    Second, the bill connects this database, the public 
database, NamUs, with the FBI's existing database that is 
accessible just to law enforcement. This will create a more 
comprehensive database and streamline the reporting processes.
    Third, it creates a competitive grants program to 
incentivize reporting to this new connected database. Funds 
could be used to develop and implement training on how to best 
use the databases and respond to these cases.
    And finally, the legislation requires the Department of 
Justice to issue information about the databases and best 
practices for responding to these cases.
    As you will hear from the Smolinskis, part of the problem 
is that many local law enforcement agencies don't really know 
how to best interact with families coming forward with these 
potential missing persons cases.
    ``Billy's Law'' is supported by 21 bipartisan co-sponsors 
and a host of organizations, including the National Center for 
Missing and Exploited Children, the National Organization of 
Police Associations and the National Association of Medical 
Examiners.
    Most important, it is supported by countless families 
throughout the country who have hit brick wall after brick wall 
in attempting to locate a missing loved one.
    I am so grateful to you, Chairman Scott, Chairman Conyers, 
for your prompt and enthusiastic response to the introduction 
of this legislation. Its passage will fulfill the wishes of the 
Smolinskis and thousands of other families who want to make 
sure that their personal nightmares are never repeated.
    I thank you and I look forward to answering any questions 
that you may have.
    [The prepared statement of Mr. Murphy follows:]
      Prepared Statement of the Honorable Christopher S. Murphy, 
       a Representative in Congress from the State of Connecticut
    Thank you Chairman Scott and Ranking Member Gohmert, as well as the 
Members of the Subcommittee, for holding today's hearing on H.R. 3695, 
the ``Help Find the Missing Act, or Billy's Law.''
    The picture I have to paint for you today is admittedly grim. Every 
year thousands of Americans go missing, often never to be seen by their 
loved ones again. In fact, according to the Bureau of Justice 
Statistics, there are over 100,000 unsolved missing persons cases open 
at any given time. Approximately 4,400 unidentified human remains are 
also found in an average year. Those numbers are too high, but just as 
intolerable are the roadblocks that family members face when trying to 
help law enforcement find a missing love one.
    This legislation is named after Billy Smolinski of Waterbury, 
Connecticut. He went missing on August 24, 2004 at the age of 31. I 
will let Billy's mother, Jan, share her family's experience with you 
today. The Smolinskis story is tragic, but this family's pursuit of 
justice, and desire to change the system for the better, is nothing 
less than heroic. You'll hear their story straight from Jan, but I can 
tell you this: no one should ever have to face the systematic failures, 
frustrations, and heartbreak that the Smolinskis have endured in their 
search to find Billy.
    H.R. 3695, which I was proud to introduce with a great champion of 
the issue of missing persons, Congressman Ted Poe, tackles three major 
problems with our nation's missing persons system.
    First, many local law enforcement agencies, medical examiners, and 
coroners don't have the resources to report missing adults and 
unidentified remains. In fact, according to a Bureau of Justice 
Statistics census of medical examiner and coroners' offices, 80 percent 
of those surveyed reported rarely or never using the FBI's unidentified 
remains database.
    Second, there is no central database to report missing persons or 
unidentified remains. Instead, there is a myriad of unconnected 
federal, state, local, and non-profit databases. This means that a 
missing persons report may be entered into one database, while the 
person's remains may be listed in another.
    Third, many local law enforcement personnel do not know about the 
federal missing persons databases or how to best handle these cases.
    Billy's Law addresses these three problems.
    First, the legislation for the first time provides statutory 
authorization for the National Missing and Unidentified Persons System. 
Also known as NamUs, the web-based database was created in July 2007 by 
the Department of Justice. It is the only federal missing persons and 
unidentified remains database that the public can access and contribute 
to and yet it is currently not a Congressionally authorized program.
    Second, the bill connects NamUs with the FBI's database. This will 
create a more comprehensive database and streamline the reporting 
process for law enforcement.
    Third, it creates a competitive grants program to incentivize 
reporting to the connected FBI/ NamUs databases. Funds could be used to 
develop and implement training on how to use the databases and respond 
to these cases.
    Finally, the legislation requires the Department of Justice to 
issue information about the databases and best practices for responding 
to these cases.
    Billy's Law is supported by 19 bipartisan cosponsors and a host of 
organizations including the National Center for Missing and Exploited 
Children, the National Organization of Police Associations, and the 
National Association of Medical Examiners. Most important, it is 
supported by countless families throughout the country who have hit 
brick wall after brick wall in attempting to locate a missing loved 
one.
    I am so grateful to you, Chairman Scott, for your prompt and 
enthusiastic response to the introduction of this legislation. Its 
passage will fulfill the wishes of the Smolinskis' and thousands of 
other families who want to make sure that their personal nightmares are 
never repeated.
    Thank you and I look forward to answering any questions you may 
have.
                               __________

    Mr. Scott. Thank you.
    Judge Poe?

    TESTIMONY OF THE HONORABLE TED POE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Poe. Thank you, Mr. Chairman, Ranking Member Gohmert, 
Chairman Conyers. It is my pleasure to testify in support of 
this common-sense piece of legislation.
    First, I want to thank my colleague, Congressman Chris 
Murphy from Connecticut, for taking up this cause and asking me 
to work with him, but also would like to thank the Smolinskis 
for being here and sharing this story and moving forward to 
this legislation so that it will be presented before Congress.
    We should always remember that in the criminal justice 
system when a victim is--becomes a victim of a crime, the 
system sometimes continues to victimize the families of that 
victim. One such way is the fact that many times victims have 
no idea what has happened--or the victims' families have no 
idea what has happened to their loved one, and that causes 
frustration and quite a bit of heartache in just not knowing.
    So our system, our justice system, must seek justice not 
only for defendants of crime but for victims and their families 
as well to have the scales of justice totally balanced.
    This legislation authorizes funding for the National 
Missing and Unidentified Persons System which will serve as a 
unique database that can be searched and cross-referenced.
    The database was created by the Department of Justice in 
2007 and loved ones of the missing can add information to 
profiles in that database, making those databases stronger. 
This system will allow Federal, State and local law enforcement 
officers to more quickly locate information about missing 
persons and enable them to also solve crimes much faster.
    Having served as a chief felony prosecutor in Houston, 
Texas for 8 years and a felony court judge for 22 years, I know 
firsthand the toll that violent crime puts on family members 
and friends. They go through a lot of stress and heartache.
    And a person that has lost a loved one to a violent crime 
is forced to bear a terrible burden. This burden is made worse 
when the family is not able to determine exactly what has 
happened to the loved one.
    Often, families have to wait for many months or years, or 
forever, until they can find final disclosure. Brave men and 
women of our local police forces do everything they can within 
their power. This legislation, however, will make their ability 
to work together with the victims' families much easier.
    Shortly after I was elected to Congress, I started the 
Victims' Rights Caucus, and this caucus supports legislation 
for policies that will help victims of crime in the United 
States.
    This legislation is such a bill, and the members of the 
Victims' Rights Caucus will support this legislation.
    We must remember, however, that violent crime is not the 
only reason an adult might go missing. A physical or 
developmental disability such as Alzheimer's disease or 
dementia may cause an adult to go missing.
    Also, after catastrophic disasters in our country many 
people go missing. Such occurred in Hurricane Rita in my 
congressional district, where many families were separated, and 
it took days, weeks and sometimes months to find family members 
because of the database problem that we currently face.
    So today we have a mixture of Federal, State and local and 
nonprofit databases that can be used to help identify remains. 
However, we must go to each one of these, or a family must go 
to each one of these, entities to find all of the information.
    So it is important that we make it much easier to have one 
simple database, and this legislation authorizes that one 
central database in NamUs, and I would like to submit the rest 
of my statement for the record.
    And once again, I want to thank Congressman Chris Murphy 
from Connecticut and the Smolinskis for pushing this 
legislation, and the Chairman for bringing such a quick hearing 
to this Subcommittee.
    And I will yield back the remainder of my time. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Poe follows:]
             Prepared Statement of the Honorable Ted Poe, 
          a Representative in Congress from the State of Texas
    It is my pleasure today to testify in support of a common sense 
piece of legislation that should have been passed years ago. First, I 
would like to thank my colleague, Congressman Murphy for taking up this 
worthy cause, and for asking me to work with him on this legislation. 
Also, I would like to thank Janice Smolinski for being here and sharing 
with us the story of her son Billy. As we analyze this piece of 
legislation, it is imperative for us to remember how important this 
bill is to people like Janice Smolinski.
    H.R. 3695 authorizes funding for the National Missing and 
Unidentified Persons System which will serve as a unique database that 
can be searched and cross-referenced. This database was created by the 
Department of Justice in 2007. Loved ones of the missing can add 
information to profiles in the database, making them stronger. It is my 
belief that this new system will allow federal, state, and local law 
enforcement officers to quickly locate information about missing 
persons enabling them to solve crimes faster.
    Having served as a chief felony prosecutor in Harris County, Texas 
for 8 years, as well as a felony court judge for over 22 years, I know 
firsthand the toll that violent crime puts on our communities. The 
friends and family of the victims go through tremendous stress and 
heartache. A family that has lost a loved one to violent crime is 
forced to bear a terrible burden. This burden is made even worse when 
the family is not able to determine what exactly happened to their 
loved one. Often, families have to wait for many months, or years, 
until they can finally find closure. The brave men and women of our 
local police forces do everything within their power to solve all 
violent crimes, and their work should be commended. However, crimes 
cross state lines. A victim may be taken far from home by his or her 
kidnappers. H.R. 3695 will give our law enforcement officials the tools 
they need to quickly solve crimes that cross state lines and bring 
closure to families and swift justice to criminals.
    Shortly after I was elected to Congress, I started the Victims' 
Rights Caucus. This Caucus supports legislation and advocates for 
policies that will help victims of crime in the United States. H.R. 
3695 is such a bill. I am proud to be a part of this bill, and I urge 
all members of this subcommittee to support it, and I will urge all 
members of the Victims Rights Caucus to support it as well.
    However, we must remember, violent crime is not the only reason an 
adult might go missing. A physical or developmental disability such as 
Alzheimer's disease or dementia may cause an adult to go missing. A 
large scale disaster such as Hurricane Katrina may cause large numbers 
of adults to be reported missing. Many children and adults in my 
congressional district were reported missing in the confusion following 
the evacuation before Hurricane Rita. In situations like these, quick 
access to national databases is the key to finding these missing 
persons.
    Today, we have a mixture of many federal, state, local, and non-
profit databases that can be used to help identify remains. However, 
these systems are not fully connected to each other. Information that 
is contained in one database might not be contained in another. Most of 
these databases do not allow the public to search or add information. 
We need a unified, national, system that can collect and gather 
information from multiple sources and allow this information to be 
easily searched by law enforcement across the country. Social media and 
sites like Wikipedia have shown us how much information can be shared 
and compiled in one place, by multiple individuals, if it is managed 
properly. It is my belief that the NamUS database can be just such a 
clearinghouse for information about missing adults and children.
    H.R. 3695 would authorize $2.4 million dollars a year for the 
Attorney General to maintain the National Missing and Unidentified 
Persons System (NamUS). Additionally, H.R. 3695 would require the 
Attorney General to share all of the information on missing persons and 
unidentified human remains that currently is found in NCIC to be shared 
with the NamUS database. H.R.3695 contains protections to ensure that 
sensitive information is not shared with NamUS as it will be a public 
database. Then, from this point forward, we will have one database 
which is easily searchable by both law enforcement and the public, to 
serve as a nationwide information clearing house on the missing.
    Every year in this country, tens of thousands of Americans go 
missing. In 2004, there were an estimated 40,000 sets of human remains 
being held by medical examiners or coroner offices across the country. 
According to the National Institute of Justice, only 6,000 of such 
cases have been entered into the National Crime Information Center's 
Unidentified Person File of the Federal Bureau of Investigation. To 
address this problem, H.R. 3695 creates incentives for state and local 
law enforcement officials to report information about the missing to 
NCIC, NamUS, and the National DNA Index System.
    Clearly, a unified, easily accessible, national database is needed 
to allow information to be more easily shared and help law enforcement 
find missing adults and children as fast as possible. H.R. 3695 is a 
common sense piece of legislation that should be supported by the 
members of this subcommittee.
                               __________

    Mr. Scott. Thank you.
    Are there questions, Mr. Gohmert?
    Ms. Wasserman Schultz, do you have any questions? Thank 
you.
    Thank you very much. We will now have our second panel. 
Appreciate the testimony from our colleagues.
    As our next panel is coming forward, they will be 
introduced. Our first witness in the second panel will be 
Janice Smolinski. She lives in Cheshire, Connecticut, in Mr. 
Murphy's district. She and her husband of 39 years, William 
Sr., raised two children, Billy and Paula, on a small farm.
    On August 24th, 2004 her life changed forever when Billy 
went missing at the age of 31. In her search for her son, she 
encountered many problems with the missing persons system, and 
she has dedicated her life not only to finding her son but also 
helping others in similar situations.
    Our second witness will be Kristina Rose, acting director 
of the National Institute of Justice. She oversees research, 
development and evaluation of the Department of Justice. She is 
also responsible for agency-wide special projects and 
initiatives that cut across both social and physical sciences.
    She was the senior--previously the senior advisor to the 
director of the NIJ, providing advice and guidance on criminal 
justice policy and management.
    Our final witness will be the FBI deputy assistant 
director, Stephen Morris. He has been with the FBI for more 
than 21 years, working in field offices in El Paso, Dayton and 
Houston. As the chief of programs, support section, he was 
assigned to the Criminal Justice Information Services Division 
and managed the FBI's Uniform Crime Reporting and Law 
Enforcement Online programs.
    In 2008 he was appointed deputy assistant director of the 
Policy Administrative and Liaison Branch.
    So we will begin with Ms. Smolinski. Ms. Smolinski, can--is 
your microphone on? Thank you.

          TESTIMONY OF JANICE SMOLINSKI, CHESHIRE, CT

    Ms. Smolinski. Thank you for having the courage to tackle 
the tragic disconnect in our country's effort to find missing 
Americans. The Help Find the Missing Act has been named 
``Billy's Law'' in honor of our son who went missing 5 years 
ago.
    It is my husband Bill and my greatest effort--hope that the 
legislation, so well crafted by Representatives Murphy and Poe, 
will be signed into law in order to help bring answers and 
peace to the thousands of families wrestling with the horror of 
having a loved one go missing.
    We hope that sharing our family's story can shed light on 
this national nightmare and illustrate the urgent need to pass 
``Billy's Law.'' With over 100,000 people missing in this 
country, our family's story is not a unique one.
    Our son's name is William Smolinski Jr., and his whole life 
we called him Billy. He was funny and a bit of a goofball, 
always trying to surprise us with a joke or a trick.
    Billy was a hard worker who drove a tow truck, owned a 
small house in the south end of Waterbury and loved his 3-year-
old German shepherd, Harley.
    Everything changed on August 24th, 2004 when Billy vanished 
at the age of 31. In our search to find our son, we encountered 
a Pandora's Box, and when we opened it, we unleashed the 
nightmare plaguing the world of the missing and the 
unidentified dead.
    Our nightmare began when a neighbor called to say that 
Billy had left his dog unfed and locked inside his house. 
Billy's truck was parked oddly in the driveway, in a spot he 
had never used before.
    We are a very close family and we knew something had 
happened. We called the police, and they told us to wait 3 days 
to see if Billy showed up and, if he didn't, to file a missing 
persons report.
    After waiting the 3 days, we filed the report and expected 
the police to launch an aggressive investigation. When the 
police did nothing, we organized our own search with friends 
and family. We even hired a private investigator.
    As the days passed, we knew something terrible had happened 
to our son. Yet we still couldn't get the attention of the 
local police department. They dismissed Billy as a walkaway 
case.
    The police were not only slow to respond but they also 
didn't report--properly report the case. It took 4 years for a 
report to be correctly filed with the National Crime 
Information Center.
    Moreover, not only did they lose seven separate DNA 
samples, but they also didn't know about the National DNA Index 
System. In fact, it wasn't until the FBI took over the 
investigation, 2 years after Billy vanished, that the proper 
reports and DNA samples were collected and filed.
    Eventually, we uncovered information that led us to believe 
Billy had been murdered in Woodbridge and buried in Seymour. 
The only person who has ever been arrested in this case is me. 
When we tried to hang missing person flyers on telephone poles 
in Woodbridge, the police arrested me. The charge was later 
dropped.
    Though much time has passed, we still haven't been able to 
find justice for our Billy. We have tried to change the system 
so no family would have to endure the anguish that we have 
lived through.
    Reform has begun in Waterbury and in many other police 
departments in Connecticut. With H.R. 3695, we have the 
opportunity to make changes nationwide.
    With the incentive grants program created in the bill, 
police training can finally catch up to modern technology while 
emphasizing sensitivity protocols. Police want to have better 
resources to solve missing persons cases, and ``Billy's Law'' 
will help them with that.
    Authorizing NamUs will help empower family members to 
search for their missing loved ones. As you can tell, looking 
for your missing loved one becomes a full time job. It consumes 
you. You have to continually hound the police, knock on doors, 
make phone calls, visit the media, make fliers, create Web 
sites, network, speak up, and check on information entered into 
databases to make sure it was created correctly.
    NamUs makes this process easier as you can both enter 
information yourself and search the database. Moreover, the 
connected NCIC-NamUs database that the legislation creates 
increases the chances of finding answers.
    Uncertainty is a cancer that crushes the spirit of loved 
ones left behind, destroys marriages and tears at the tissue of 
family bonds. The stress of having a missing loved turns some 
to substance abuse, creates health problems and drives people 
into bankruptcy.
    Unless there is some form of resolution, the heartache 
never truly goes away. This legislation is long overdue, and 
the missing community applauds his efforts.
    This act is named after my son, but it is not for him or 
the Smolinski family. This act is for every American, and it is 
the ultimate act in homeland security.
    Thank you again.
    [The prepared statement of Ms. Smolinski follows:]
                 Prepared Statement of Janice Smolinski
    Good morning and thank you Chairman Scott, Ranking Member Gohmert, 
and Members of the Subcommittee for having the courage to tackle the 
tragic disconnect in our country's effort to find missing Americans.
    The Help Find the Missing Act has been named ``Billy's Law'' in 
honor of our son who went missing from Waterbury, Connecticut five 
years ago. It is my husband Bill and my greatest hope that the 
legislation, so well crafted by Congressman Murphy and Congressman Poe, 
will be signed into law in order to help bring answers and peace to the 
thousands of families wrestling with the horror of having a loved one 
go missing.
    My husband and I are uncomfortable in the spotlight, but we hope 
that sharing our family's story can shed light on this national 
nightmare and illustrate the urgent need to pass Billy's Law. With over 
100,000 people missing in this country, our family's story is not a 
unique one.
    Our son's name is William Smolinski Jr., and his whole life we 
called him Billy. He was funny, and a bit of a goof ball, always trying 
to surprise us with a joke or a trick.
    Billy was a hard worker who drove a tow truck, owned a small house 
in the South End of Waterbury, and loved his three-year-old German 
Sheppard, Harley.
    Everything changed on August 24, 2004 when Billy vanished at the 
age of 31. In our search to find our son we encountered a Pandora's 
Box, and when we opened it, we unleashed the nightmare plaguing the 
world of the missing and the unidentified dead.
    Our nightmare began with a phone call. A neighbor called to say 
that Billy had left his dog unfed and locked inside his house. Billy's 
truck was parked oddly in the driveway, in a spot he had never used 
before. We are a very close family and immediately knew something 
extraordinary had happened. We called the police and they told us to 
wait three days to see if Billy showed up, and if he didn't, to file a 
missing persons report.
    After waiting the three days, we filed the report, and expected the 
police to launch an aggressive investigation. When the police did 
nothing we organized our own search with family and friends. We even 
hired a private investigator. As the days passed we knew something 
terrible had happened to our son.
    Yet we still couldn't get the attention of the local police 
department. They dismissed Billy as a voluntary runaway case.
    The police were not only slow to respond, but they also didn't 
properly report the case. It took four years for a report to be 
correctly filed with the National Crime Information Center (NCIC). 
Moreover, not only did they lose seven separate DNA samples, but they 
also didn't know about the National DNA Index System (NDIS). In fact, 
it wasn't until the FBI took over the investigation--two years after 
Billy vanished--that the proper reports and DNA samples were collected 
and filed.
    Eventually we uncovered information that led us to believe Billy 
had been murdered in Woodbridge, Connecticut, and buried in Seymour.
    In fact, according to international homicide expert Bill Hagmaier, 
a great leader in fighting for reform, a majority of the missing aren't 
just missing, they have been murdered.
    However, to this day, the only person who has been arrested in this 
case is me. When we tried to hang missing person flyers on telephone 
poles in Woodbridge, the police arrested me. The charge was later 
dropped.
    Though much time has passed, we still haven't been able to find 
justice for our Billy. We have tried to change the system so no family 
would have to endure the anguish that we have lived through these past 
five years. Reform has begun in Waterbury and in many other police 
departments around Connecticut.
    With H.R. 3695, we have the opportunity to make changes nationwide. 
With the incentive grants program created in the bill, police training 
can finally catch up to modern science and technology, while 
emphasizing sensitivity protocols. Police want to have better resources 
to solve missing persons cases and Billy's Law will help them with 
that.
    Authorizing the Department of Justice's National Missing and 
Unidentified persons System (NamUs) will help empower family members to 
search for their missing loved ones. As you can tell, looking for your 
missing loved one becomes a full time job. It consumes you. You have to 
continually hound the police, knock on doors, make phone calls, visit 
the media, make fliers, create websites, network, speak up and check on 
information entered into databases to make sure it was created 
correctly. NamUs makes this process easier as you can both enter 
information yourself and search the database. Moreover, the connected 
NCIC/NamUs database that the legislation creates increases the chances 
of finding answers.
    Uncertainty is a cancer that crushes the spirit of loved ones left 
behind, destroys marriages and tears at the tissue of family bonds. The 
stress of having a missing loved turns some to substance abuse, creates 
health problems and drives people into bankruptcy. Unless there is some 
form of resolution, the heartache never truly goes away.
    Congressman Murphy's effort gives families like mine hope for a 
better, more certain tomorrow. This legislation is long overdue, and 
the missing community applauds his effort. This act is named after my 
son, but it's not for him, or the Smolinski family.
    This act is for every American, and is an ultimate act in Homeland 
Security.
    Thank you again for holding this hearing today. I look forward to 
answering any questions you may have.
                               __________

    Mr. Scott. Thank you. Thank you, Ms. Smolinski, and thank 
you for dedicating yourself to use your case to help others.
    Ms. Smolinski. Thank you.
    Mr. Scott. Ms. Rose?

TESTIMONY OF KRISTINA ROSE, ACTING DIRECTOR, NATIONAL INSTITUTE 
  OF JUSTICE, OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT OF 
                    JUSTICE, WASHINGTON, DC

    Ms. Rose. Mr. Chairman, Ranking Member Gohmert and Members 
of the Subcommittee, I am pleased to have this opportunity to 
discuss the Department of Justice's Missing and Unidentified 
Persons System, otherwise known as NamUs, and to affirm our 
strong support for H.R. 3695, or ``Billy's Law.''
    We commend Congressman Murphy and Congressman Poe for 
sponsoring ``Billy's Law,'' and thank the Subcommittee for 
their interest in NamUs.
    I am especially grateful to Janice Smolinski for her 
courageous efforts to raise an awareness of the need to report 
and share information about missing persons.
    My name is Kristina Rose, and I am the acting director of 
the National Institute of Justice. I am proud to be here with 
Stephen Morris. He and his colleagues at the FBI have been 
valuable partners in supporting State and local efforts to find 
and share information about missing and unidentified persons.
    We established NamUs to respond to an overwhelming need for 
a central reporting system for unidentified human remains.
    Our Bureau of Justice Statistics reported that, as of 2004, 
more than half of the Nation's medical examiners' offices had 
no policy for retaining records, such as x-rays, DNA or 
fingerprints, on unidentified human remains. In addition, it is 
estimated that on any given day there are 100,000 active 
missing persons cases.
    NamUs is the first national system for solving missing 
persons cases and unidentified dead that was developed by and 
for those who use it--by law enforcement, medical examiners, 
coroners and the public.
    The creation of NamUs has provided unparalleled 
opportunities for true partnerships among these groups, 
especially with the families of the missing and unidentified 
dead.
    NamUs engages the public to work alongside State and local 
agencies to help resolve cases, increase public safety and 
provide resolution for families and for loved ones.
    NamUs also serves as a central online repository for other 
missing persons' Web sites, for State clearinghouses, for 
contact information, legislation and other resources from 
around the country.
    So now, instead of having to search newspapers or call 
morgues around the country to find information about 
unidentified persons, families and loved ones can turn to 
NamUs.
    NamUs was implemented in three stages. In June of 2007, we 
launched the first database, for unidentified dead. And then in 
January of 2009, we completed the second phase, for a database 
on missing persons' information. In July of last year, the 
third phase of NamUs became active, and that was the cross 
matching.
    The system now automatically searches for similarities 
between the unidentified dead cases and the missing person 
cases every time a new case is published to the system or when 
a new case is opened. The system alerts NamUs case managers 
when potential matches are found so that they can follow up.
    And in just a short period of time, NamUs has become an 
extremely valuable tool. All 50 States have missing person case 
reports in NamUs. Law enforcement officers in 50 States are 
registered, and medical examiners in 48 States, Puerto Rico and 
the District of Columbia are also using the system.
    And NamUs has already made a difference in people's lives. 
Last year, NamUs was used to identify the remains of a man 
recently found dead as those of a boy that was reported missing 
in Virginia in 1995.
    Another example is a man who disappeared in Connecticut 
last April. His aunt entered information about him in NamUs, 
and the following month a body was found. And using the 
information entered by the aunt, the body was identified as 
that man who disappeared in April.
    And while the information uncovered by NamUs unfortunately 
confirms deaths, it brings much needed resolution to families 
and friends.
    Now, while we are very, very proud of what NamUs has 
accomplished so far, we are also striving every day to make it 
better. And that is why we enthusiastically support ``Billy's 
Law.''
    This legislation would specifically authorize NamUs as well 
as lead to substantial improvements in how information is 
shared between NamUs and the NCIC.
    We are also hopeful that the bill will provide a strong 
incentive, through the proposed grant program, for States to 
provide critical information to NCIC and NamUs shortly after a 
case is reported.
    Please be assured that the department will continue to 
expand and improve its efforts to help law enforcement, medical 
examiners, coroners and the public find missing persons and 
identify human remains.
    We look forward to working with the Subcommittee on 
``Billy's Law.'' And this concludes my statement, Mr. Chairman. 
Thank you for the opportunity to testify today, and I am happy 
to answer any questions that you have.
    [The prepared statement of Ms. Rose follows:]
                  Prepared Statement of Kristina Rose

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Thank you.
    I would like to recognize the fact that Ms. Waters had come 
in, and Mr. Quigley has joined us.
    Mr. Morris?

  TESTIMONY OF STEPHEN L. MORRIS, DEPUTY ASSISTANT DIRECTOR, 
CRIMINAL JUSTICE INFORMATION SERVICES DIVISION, FEDERAL BUREAU 
                OF INVESTIGATION, WASHINGTON, DC

    Mr. Morris. Good morning, Mr. Chairman.
    Good morning, Mr. Chairman--Ranking Member Gohmert, I see, 
has left briefly--and distinguished Members of the 
Subcommittee. My name is Stephen L. Morris, and I am a deputy 
assistant director at the FBI's Criminal Justice Information 
Services Division, otherwise known as CJIS, located in 
Clarksburg, West Virginia.
    It is my pleasure to join my colleague, Kristina Rose, from 
the National Institute of Justice, and especially Bill and 
Janice Smolinski, in thanking you for this opportunity to 
appear before the Subcommittee to discuss the ``Help Find the 
Missing Act,'' or ``Billy's Law.''
    It is indeed my honor to provide testimony today regarding 
the FBI's National Crime Information Center and its 
relationship to the Department of Justice's National Missing 
and Unidentified Persons System, or NamUs.
    Both of these systems play a vital role in locating and 
identifying missing and unidentified persons. As you know, the 
National Crime Information Center, commonly known as NCIC, has 
a computerized database of criminal justice information 
available to virtually every law enforcement agency nationwide, 
24 hours a day, 365 days a year.
    Established in 1967 primarily to assist law enforcement in 
apprehending fugitives and locating stolen property, the NCIC's 
role has clearly expanded over the last 42 years.
    Currently, the NCIC database consists of 19 files, 
comprised of seven property files and 12 person files. All 
these files contain more than 10 million records.
    Of the 12 person files within the NCIC, there are two that 
are impacted by ``Billy's Law''--one, the missing person file, 
and two, the unidentified person file.
    The missing person file, which was created in 1975, 
contains approximately 98,000 records, and the unidentified 
person file, which was established in 1983, contains 
approximately 7,000 records.
    Since its inception, NCIC, like all other CJIS information-
sharing programs, has operated under a shared management 
concept known as the CJIS Advisory Policy Board, or APB, as we 
refer to it.
    This board represents the interests of more than 17,000 
local, State, Federal and tribal law enforcement agencies 
accessing CJIS systems throughout the United States. Through 
various Subcommittees, working groups and a voting board, the 
CJIS APB enables CJIS systems users to make recommendations to 
the FBI director regarding policy and operational enhancements 
to those CJIS systems.
    Essentially, the CJIS division serves as a custodian of 
NCIC records and is a steward of NCIC information for more than 
100,000 law enforcement and other authorized users of the NCIC. 
Currently the NCIC averages more than 7 million transactions 
per day.
    Needless to say, the FBI and the CJIS APB recognize the 
significant role the NCIC has played in the location and 
identification of missing persons. According to one benefit 
survey conducted by the CJIS Division, an estimated 50,000 
missing persons were located as a direct result of information 
obtained through the NCIC in a single year.
    Throughout its collaborative effort with the APB, the CJIS 
Division years ago developed a cross-matching capability that 
automatically compares records within the NCIC missing person, 
unidentified person and wanted person file any time a record 
within these files is entered or modified by an agency.
    The comparison is performed on a daily basis and generates 
a list of potential candidates which is then provided to the 
agency entering or modifying a record and to the agency who may 
own a record in the NCIC.
    For example, in 2007 a California police department entered 
a missing person record into NCIC and received an automatic 
response from the NCIC identifying several candidates from the 
unidentified deceased records.
    No identification was made from those candidates. However, 
approximately 30 days later the police department updated their 
original record with some dental information. That information 
generated additional candidates and ultimately resulted in the 
positive identification of a missing person.
    In 2008, based upon unidentified person information entered 
by a police department in Georgia, the NCIC generated an 
automatic response to the Georgia police department and a 
police department in Tennessee identifying a possible match.
    As a result of that notification, the Georgia and Tennessee 
agencies positively identified the person as a missing person 
from the State of Tennessee dating back more than 10 years.
    Despite these successes, the FBI and the CJIS APB remain 
steadfastly committed to further enhancing and leveraging the 
NCIC to locate and identify missing persons.
    We understand the interest among the Federal Government, 
law enforcement and the medical examiner and coroner 
communities to further leverage the NCIC by sharing missing and 
unidentified person information in a Web-based environment.
    However, we are also mindful of the rights to privacy and 
civil liberties which we must preserve as we explore the 
possibility of sharing law enforcement sensitive information in 
a publicly accessible environment.
    It is this very tenet that underscores the significant role 
the CJIS APB plays in coordinating this national effort. In 
fact, in 2007, the FBI began participating in several NamUs 
working groups and advisory committees.
    And throughout the CJIS APB--or through the CJIS APB we 
started working with the National Institute of Justice in 
developing an interim process for sharing NCIC data with NamUs.
    Although this effort has resulted in several States 
directly providing data extracts from the NCIC to the NamUs, 
the FBI and the National Institute of Justice recognize the 
deficiencies and ineffectiveness of this process. We are 
committed to exploring a more reliable and efficient long-term 
solution.
    In closing, I would like to thank you, Mr. Chairman and 
Members of the Subcommittee, for providing the FBI an 
opportunity to contribute to this worthwhile endeavor.
    The FBI looks forward to working with the Members of this 
Subcommittee, the National Institute of Justice, and our local, 
State, Federal and tribal law enforcement partners in 
furthering the development and operation of NamUs.
    I look forward to your questions and comments. Thank you.
    [The prepared statement of Mr. Morris follows:]
                Prepared Statement of Stephen L. Morris

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Thank you very much.
    We would like to thank all of our witnesses for their 
testimony. I just have a couple of questions.
    Mr. Morris, you kind of alluded to this. Does the bill 
appropriately limit the kind of information that can be put in 
to make sure that confidential law enforcement or private 
information is not accessible?
    Mr. Morris. I think the legislation addresses the 
discretion that law enforcement agencies have in what data 
should be entered into the system.
    I think it sufficiently addresses and acknowledges that 
there are some privacy concerns there by allowing the agencies 
to basically determine what information it wants to share. I 
think that is the beauty of our advisory policy board process.
    Through that forum, we were able to--that board is made up 
of approximately 32 officials, representatives throughout the 
country that represent the multiple jurisdictions that have law 
enforcement data in NCIC.
    And as we raise issues to them, much like what we are 
talking about today, we are able to present those issues and 
concerns to the board and, for lack of a better word, vet that 
information out through the--through the law enforcement 
community and get their input back, and hopefully develop a 
standard, universal--I guess universal standards that we--that 
allow them to abide by their local laws but also meeting the 
objectives of what we are trying to do here in sharing the 
information in a national system.
    Mr. Scott. Within the system, is there an appropriate 
protocol for preserving DNA evidence? If you have unidentified 
remains, how do you--is there a protocol for preserving the DNA 
evidence?
    Mr. Morris. I don't believe that we have specifically 
discussed DNA to the level we have the other information. Our 
laboratory division is--actually manages the FBI's CODIS and--
national CODIS system, the national DNA system. We work and 
collaborate, obviously, with our laboratory division in 
leveraging the CODIS system with our IAFIS system and the 
different biometric systems we have.
    That clearly is something that we will be working with our 
laboratory division on to see what we will be able to do. 
Again, the CODIS system and the national DNA system is governed 
and managed by a different set of standards that our laboratory 
is actually the owner of, so I think----
    Mr. Scott. Well, if you have an unidentified remains, what 
happens? Can you get DNA evidence into the system?
    Mr. Morris. Into the CODIS system, sir?
    Mr. Scott. Well, into the missing persons system so if you 
have a missing person or unidentified remains, they could be 
identified, could they not, by DNA?
    Mr. Morris. Right. The NCIC system currently today does not 
house DNA information.
    Mr. Scott. Is that anticipated, Ms. Rose, in this 
legislation?
    Ms. Rose. Actually, the way that it works now is that if--
we offer free DNA analysis services to persons who enter 
information about the missing person or to the medical 
examiners and coroners who enter information on unidentified 
remains.
    That DNA is uploaded into CODIS, into the missing persons 
part of CODIS, and then there is an indication in the NamUs 
system as to whether DNA is available. So it is separate from 
the NamUs system, but the indicators are in the system as to 
whether DNA is available.
    Mr. Scott. And if someone is missing, could you put in DNA 
from relatives if you don't have the----
    Ms. Rose. Yes, you can.
    Mr. Scott.--DNA from the person, so that you could 
calculate a hit?
    Ms. Rose. Absolutely. That is a very important part of 
this, that reference samples be taken from family members if 
they don't have a DNA sample from the missing person. Yes.
    Mr. Scott. And there is obviously a backlog of information 
to be input. Is there a provision to input all of the 
backlogged information?
    Ms. Rose. Well, I think that the grant program that is 
outlined in the legislation will go a long way toward doing 
that. One of the issues that law enforcement and medical 
examiner communities face right now are a lack of resources or 
capacity to be able to enter that information into the system.
    Providing grant funds to help them do that will 
exponentially help provide that information to the NamUs system 
and help solve additional cases.
    Mr. Scott. Is there a mechanism to download or make 
available photographs or other tangible information into the 
system?
    Ms. Rose. Yes, sir, there is. You are able to do that 
through NamUs. You can generate missing persons posters. There 
are photographs--where they are available, you can put in 
multiple photographs if you would like.
    Mr. Scott. Is there anything we haven't done in the bill 
that needs to be done?
    Ms. Rose. Actually, I commend the work that has been done 
by Congressman Poe and Congressman Murphy on this bill.
    We are very supportive and very excited about authorizing 
NamUs, providing funds to help populate the NamUs system, and 
especially working with our colleagues at the FBI to be able to 
share more information between NCIC and NamUs to make it a 
better system.
    Mr. Scott. Ms. Smolinski, we are well on our way to helping 
solve the problem for others.
    Ms. Smolinski. Thank you.
    Mr. Scott. So I think the questions and responses we have 
had have been very encouraging. Thank you.
    Ms. Smolinski. Thank you.
    Mr. Scott. Judge Poe?
    Mr. Poe. Once again, I want to thank you, all three of you, 
for being here, and my friend Mr. Murphy for sponsoring this 
legislation.
    It seems to me over my 30 years in the justice system that 
the number one concern that victims and victims' family have is 
information. They want to know what is taking place, even 
sometimes more importantly than what happens to the offender.
    They want to know about the case, the information. And we 
are an information society now. We have the best geeks in the 
world right here in the United States.
    And I appreciate the fact, Ms. Smolinski, that you and your 
family have persevered, getting arrested--that is awful. And 
you did, like the old saying, call your Congressman, and he 
responded. He has moved this legislation.
    The Committee is moving the legislation, with thanks to 
Chairman Scott. So the system is working to that extent. I 
think it is a piece of--this is a very good piece of 
legislation.
    I have a question for you. Myself and Mr. Murphy both are 
concerned about--you said that you had other such families that 
you have met and networked with. Describe the relationship with 
those families in a similar situation, your relationship with 
those people.
    Ms. Smolinski. I am on the phone with families, three, four 
different families a day. This goes back to--when Billy first 
went missing, I met my first mother whose son went missing.
    I think it was the networking, reaching out on the 
telephone, and learning the process, because when my son went 
missing, I didn't know that there was a disconnect between 
medical examiners and law enforcement.
    I called our medical examiner to see if he knew if a John 
Doe--if a John Doe came in, it may be my son, and if I knew--if 
he knew that he was missing, and he said no. So I had to fax 
him, reaching out through the Internet, and getting my own Web 
site, and--with Facebook and MySpace and all the other 
different sites, and telephone calls.
    I met families, had very similar situations, but yet they 
couldn't reach out. They were devastated. And sometimes we have 
to go out and fight for them.
    I have the Quilt of Hope in front of me right now, and 
these are some of the families that I am working with. And each 
square was dedicated to them, and they were able to make the 
square the way they wanted to.
    I think that having the faces out there helps with the 
families to give them psychological encouragement, and they 
need hope. And with NamUs, that is tremendous hope for them, 
even with the psychological--they will be able to work with 
NamUs and be able to watch their case. And if there is 
something on there, they could correct it right away.
    I know with one family recently I have been working with, 
they thought the DNA was in the system, and we checked on it 
and the DNA was not in the system. So we need some kind of 
centralized--you know, so the families will be able to breathe 
a little bit and have some rest. This could happen to anyone.
    You know, if it happened to my 31-year-old son who weighs 
200 pounds, six feet tall--and he was the one that we always 
thought he could defend himself. And in this case, he didn't, 
so--thank you.
    Mr. Poe. Thanks.
    Just a couple more questions, Ms. Rose and Mr. Morris. 
There is a difference, I think, in our system between 
information about offenders, defendants, potential offenders 
and all of their privacy issues, and victims of crime who 
disappear. I see a difference in how we should treat both of 
those.
    Do you agree with that or disagree with that philosophy? In 
other words, we should have that information about people who 
go missing much more readily available to the community than, 
maybe, these other issues about offenders and all of that 
stuff. We just have a few--a minute left, so, Ms. Rose and Mr. 
Morris?
    Ms. Rose. Well, I think that you make an interesting point, 
and I think the beauty of NamUs here is that we have been able 
to provide information that has not been available typically to 
the general public.
    We all know that nobody is going to fight as hard or stay 
up as late into the night looking for missing persons as the 
families are. So being able to make NamUs available to the 
public and provide that unique heart of this database has 
really been the beauty of the system.
    And I think what makes it different, what makes it 
successful--and it has enabled us to get the buy-in not only 
from the law enforcement community, because they have 
benefitted very much from the involvement of the public--many 
of our success cases are because families, advocates, private 
citizens have stayed up late into the night searching NamUs and 
have discovered similarities between missing and unidentified 
dead.
    So I would say that being able to provide that information 
where we never have been able to do that before has been a huge 
benefit for this country.
    Mr. Poe. All right.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    Mr. Quigley?
    Mr. Quigley. Mr. Chairman, my questions were asked and 
answered, but I, too, want to thank Mr. Murphy and Mr. Poe for 
their efforts here, and the panel, and everyone in this room 
for their efforts in this extraordinary legislation. Thank you 
so much.
    Mr. Scott. Thank you.
    I would like to thank all of the witnesses for their 
testimony today. Members may have additional written questions 
which we will forward to you and ask to be--that you would 
answer them promptly so that the answers can be made part of 
the record.
    We received a letter from the Department of Justice about 
H.R. 3695 and I, without objection, will place that in the 
record.
    The record will remain open for 1 week for the submission 
of additional material.
    And again, Ms. Smolinski, we would like to thank you 
particularly for your testimony. This bill would not have taken 
place without your advocacy. Thank you very much.
    And without objection, the Subcommittee stands adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]
















                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Maxine Waters, a Representative in 
  Congress from the State of California, and Member, Subcommittee on 
                Crime, Terrorism, and Homeland Security

 Letter to the Honorable Bobby Scott, Chairman, Subcommittee on Crime, 
Terrorism, and Homeland Security, from Ronald Weich, Assistant Attorney 
  General, Office of Legislative Affairs, U.S. Department of Justice, 
                             Washington, DC

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
